Security Patch Management Review

(Report No. 03-035, August 21, 2003)

Summary

International Business Machines (IBM), an independent professional services firm, was engaged
by the Office of Inspector General (OIG) to perform a vulnerability assessment of the Federal
Deposit Insurance Corporation’s (FDIC) network operations. The work accomplished through
this contract helped the OIG satisfy its Federal Information Security Management Act-related
reporting requirements.

The objective of the review was to evaluate the policies and procedures for implementing
security patches in the FDIC’s networked environment. The scope of the review was specifically
designed to focus on the security patching process of Cisco routers and Windows servers.

IBM concluded that the FDIC’s Division of Information and Resources Management (DIRM) is
improving its program; however, additional work is needed to strengthen the security patch
management process.

Recommendations

IBM made multiple recommendations to the Acting Director, DIRM, to improve the security
patch management process.

Management Response

DIRM’s response adequately addressed the conditions discussed in the report.

This report addresses issues associated with information security. Accordingly, we have not
made, nor do we intend to make, public release of the specific contents of the report.
